               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Stamp Stock Ordering and Fulfillment

                       Audit Report




                                              November 8, 2013

Report Number MS-AR-14-001
                                                                   November 8, 2013

                                            Stamp Stock Ordering and Fulfillment

                                                      Report Number MS-AR-14-001




BACKGROUND:
The U.S. Postal Service uses two           season, prior to a rate change, and
operational components to process          during a time when over 4,000 retiring
postage stamp orders: (1) stamp            postmasters were replaced. Further,
distribution centers process about 4,500   management did not effectively
internal requests received each day        communicate with personnel
from retail units via the Solution for     responsible for ordering and fulfilling
Enterprise Asset Management system;        stamp stock. As a result, the Postal
and (2) Stamp Fulfillment Services         Service’s ability to accurately assess
processes over 10,000 orders a day         existing stamp stock inventory and
from collectors, businesses, and           increase stock visibility is limited. We
residential customers requesting           identified $120 million as revenue at risk
stamps, philatelic memorabilia, and        related to stamp stock transactions not
retail products. These products are        being recorded timely.
shipped directly to the customer's
doorstep.

Our objective was to determine whether
there were opportunities for improving
the internal stamp ordering and
fulfillment processes.

WHAT THE OIG FOUND:
Significant improvements to the Postal
Service’s internal stamp ordering and
fulfillment processes are needed to        WHAT THE OIG RECOMMENDED:
effectively and efficiently manage stamp   We recommended management
stock. Specifically, stamp stock           improve scanning compatibility and
shortages and delays occurred as a         conduct proper testing, develop a policy
result of implementing the Solution for    ensuring timely posting of transaction
Enterprise Asset Management system.        data, send status alerts to requesters,
The system was not adequately tested       and effectively communicate process
prior to deployment to account for the     changes with stamp distribution center
large number of users and requests to      and retail unit personnel.
be processed. In addition, problems
were exacerbated because deployment        Link to review the entire report
occurred during the 2012 holiday
November 8, 2013

MEMORANDUM FOR:            NAGISA M. MANABE
                           CHIEF MARKETING AND SALES OFFICER, EXECUTIVE
                           VICE PRESIDENT

                           SUSAN M. BROWNELL
                           VICE PRESIDENT, SUPPLY MANAGEMENT




FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Revenue and Performance

SUBJECT:                   Audit Report – Stamp Stock Ordering and Fulfillment
                           (Report Number MS-AR-14-001)

This report presents the results of our audit of Stamp Stock Ordering and Fulfillment
processes (Project Number 13WG011MS000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Janet Sorensen, director, Sales
and Marketing, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Stamp Stock Ordering and Fulfillment                                                                               MS-AR-14-001




                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Stamp Stock Shortages and Delays ................................................................................ 2

   Technical Issues .......................................................................................................... 3

   Operational Issues ....................................................................................................... 4

Future Considerations ..................................................................................................... 5

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 5

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 7

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Other Impact ............................................................................................. 10

Appendix C: Stamp Sales Activity ................................................................................. 11

Appendix D: Management's Comments ........................................................................ 13
Stamp Stock Ordering and Fulfillment                                                                   MS-AR-14-001



Introduction

This report presents the results of our audit of the U.S. Postal Service's Stamp Stock
Ordering and Fulfillment processes (Project Number 13WG011MS000). Our objective
was to determine whether there were opportunities for improving the Postal Service's
internal1 stamp ordering and fulfillment processes. This audit was self-initiated based on
concerns that postal retail units (PRUs) were either running low on or out of stamps to
sell to the public. See Appendix A for additional information about this audit.

The Postal Service uses two operational components to process postage stamp orders:
(1) stamp distribution centers (SDCs), under Supply Management, process requests
received from PRUs and contract postal units; and (2) Stamp Fulfillment Services,
under Marketing and Sales, processes stamp orders received directly from external
customers, including large mailers. Our audit focused on SDC operations.

SDCs: The Asset Management Integration (AMI) team, which is responsible for
improving asset management, implemented the Solution for Enterprise Asset
Management (SEAM) system2 in August 2012. SEAM replaced the Stamp Services
System as the system SDCs use to automatically track and replenish stamp stock levels
for internal customers. PRU staff place stamp orders in the eBuy2 Ordering System3 or
by telephone for staff members who do not have access to eBuy2. Approved eBuy2
orders are batched and routed to SEAM for processing by the SDC assigned to the
PRU. There are currently six SDCs that provide stamps to about 31,000 PRUs
throughout the country.

Stamp Fulfillment Services: Stamp Fulfillment Services provides stamps, philatelic
memorabilia, and retail products to collectors, businesses, and residential customers.
Stamp Fulfillment Services is located in Kansas City, MO, and serves as a centralized
retail outlet for consumers to order and receive products directly at their doorstep.
Customers place orders via mail, fax, telephone, and the Internet and must pay for
orders before they are processed and shipped. Stamp Fulfillment Services ships most
orders to customers on the same day if it receives the request before 10 a.m. central
standard time.




1
  Internal stamp ordering and fulfillment processes apply to SDCs, PRUs, and contract postal units.
2
  This Oracle web-based application was designed to improve inventory tracking and visibility, implement forecasting
and automatic replenishment capabilities, and standardize asset tracking and maintenance/repair functions for
stamps and vehicles. Our focus was on the stamp feature of the system. Supply Chain Planning provides the
capabilities and processes required to forecast the demand for products and initiate the respective supply actions to
meet the forecasted demand.
3
  The official Postal Service enterprise tool for ordering goods and services.
                                                             1
Stamp Stock Ordering and Fulfillment                                                                 MS-AR-14-001




Conclusion

Significant improvements are needed to the Postal Service’s internal stamp ordering
and fulfillment processes to effectively and efficiently manage stamp stock. Specifically,
stamp stock shortages and delays occurred because of implementing the SEAM
system. The system was not adequately tested prior to deployment to account for the
large number of users accessing SEAM and the large number of requests to be
processed. Problems were exacerbated because the system was deployed during the
2012 holiday season, prior to a rate change, and when over 4,000 retiring postmasters
were replaced with new employees. Further, management did not effectively
communicate with SDC and PRU personnel responsible for ordering and fulfilling stamp
stock. As a result, the Postal Service’s ability to accurately assess existing stamp stock
inventory, increase stamp visibility and availability, and ensure the accuracy of tracking
stamp shipments is limited at approximately 31,000 PRUs. We identified $120 million as
revenue at risk for stamp stock shipments received from suppliers but not recorded
timely in inventory records.

Stamp Stock Shortages and Delays

PRUs experienced substantial delays in receiving stamp
orders due to stamp shortages at the SDCs. Specifically,
PRUs experienced delays of more than 14 days for receipt
of stamp orders between November 2012 and March 2013.
This resulted in shortages of specific commemorative and
various other stamps available for sale at PRUs. Under the
previous Stamp Services System, PRUs received stamp
shipments 3 to 5 days after placing the order.

We also identified six separate occasions where SDC stock Where Dreams Blossom
was depleted and resulted in backorders and delayed                stamps were not
                                                                   available at more than
fulfillment from March to June 2013. In addition, we noted
                                                                   24 percent of PRUs.
shortages with popular commemorative stamps and special
issue stamps, including Where Dreams Blossom stamps,
where 24 percent of the large PRUs4 did not have these stamps available for sale by
the 8th week after the first day of issue.5 This trend continued through the 12th week
following the first day of issue with more than 50 percent of PRUs not having these
stamps available for sale.6 Consequently, the Postal Service continues to experience
issues with shortages and delays in order fulfillment. See Appendix C for additional
examples of commemorative stamp shortages at PRUs.

The shortages and delays occurred because significant technical issues impacted
SEAM. These issues included problems with the connectivity testing environment, the

4
  We defined large PRUs as facilities that sold 5,000 or more of the commemorative stamps discussed in this report.
5
  Stamp sales recorded in the Retail Data Mart from the first day of issue, April 11, 2013.
6
  Collectors primarily purchase commemorative and special issue stamps within the first 13 weeks of issuance.

                                                         2
Stamp Stock Ordering and Fulfillment                                                                 MS-AR-14-001



recording of financial transactions, the interface between eBuy2 and SEAM, and
electronic order status alerts given to PRUs. In addition, operational issues, such as
ineffective communication with SDC and PRU personnel, contributed to the condition.
These shortages and delays were further exacerbated by the timing of the system's
deployment, which occurred during the 2012 holiday season, prior to a rate change, and
at a time when over 4,000 retiring postmasters were replaced with new employees. As a
result, the Postal Service could not effectively manage all of its stamp stock inventories,
which affected sales activity at various locations.

Technical Issues

   Managers at all six SDCs stated that personnel experienced daily connectivity
    issues with the hand-held scanners used to record the physical location of stamp
    stock at the SDC. Specifically, personnel stated that connecting to SEAM with the
    scanners was either extremely slow or only possible intermittently on a daily basis,
    and resulted in delays in accepting and processing stamp orders. We observed
    employees at three SDCs who experienced connectivity delays of up to 15 minutes
    when using the scanners to select stamp stock from storage areas. In addition, we
    observed daily instances of scanners used to verify stock to be packaged and
    shipped either slow down or stop working at the three SDCs. This caused up to
    40 minutes of downtime for about 80 employees across the six SDCs. The AMI
    project leader stated these scanning disruptions will continue to occur because
    SEAM is using an outdated information technology (IT) platform. IT management
    stated that since it did not anticipate the large number of users accessing SEAM and
    the number of requests to be processed, the testing environment may not have been
    sufficient.

   Transaction data for 49 stamp stock shipments from suppliers totaling $120 million
    were not transmitted from SEAM to the Standard Accounting for Retail7 system for
    up to 3 months after receipt. Although SDC personnel attempted to acknowledge
    receipt of the shipments in SEAM the day they were delivered, issues with the
    system's functionality existed. The Postal Service does not have a policy
    governing the number of days SDC personnel are required to record shipments in
    SEAM and transmit detailed data to the Standard Accounting for Retail system. The
    $120 million of stamp stock represents revenue at risk as they were not recorded in
    the Standard Accounting for Retail system timely. See Appendix B.

   Automated controls between eBuy2 and SEAM did not exist to ensure complete and
    accurate data was transferred between the two systems. Specifically, the AMI team
    was not aware that 207 approved eBuy2 stamp orders did not transmit to SEAM for
    up to 6 days after the initial request. As a result of our audit, the AMI team
    implemented a system control on July 27, 2013, which validates the number of
    transactions sent from eBuy2 to SEAM.


7
 The Standard Accounting for Retail system merges financial and retail systems by serving as the national collection
and reporting system that provides an integrated view of Postal Service operations.

                                                         3
Stamp Stock Ordering and Fulfillment                                                                MS-AR-14-001



   The SEAM electronic notification, which alerts the requester of an order status
    change, was not functioning properly. For example, PRU personnel ordered stamps
    through the eBuy2 system, which indicated the stamps were available. However,
    between the time the request was placed and the order was transmitted to SEAM for
    fulfillment, some stamps became unavailable and the requesters were not notified of
    this change. We identified more than 50,000 orders that were cancelled by SDC
    personnel between November 2012 and April 2013 because stamps were no longer
    in stock. The requesters were not notified of these cancellations — which led to PRU
    requesters often placing emergency or duplicate orders — or simply did not receive
    their stamp stock orders. Although the SEAM system has this notification capability,
    the AMI team managing the system was unaware the electronic messaging was not
    working properly.

Operational Issues

   AMI management did not effectively communicate with PRU personnel regarding
    significant stamp ordering process changes. A new process required a stamp stock
    order to be approved using the eBuy2 system during the assigned ordering
    timeframe prior to being transmitted to SEAM. 8 Although staff members knew that an
    approval was required, some PRU staff did not understand that orders approved
    after the deadline would not be filled until the next month's ordering cycle.
    Consequently, there were often delays in filling and shipping stamp stock orders to
    PRU requesters. AMI management used various channels9 to communicate process
    changes; however, we found the information was not communicated directly to PRU
    personnel responsible for managing stamp stock.

   Many PRU employees were not aware that the expected turnaround time for receipt
    of stamp orders increased from 3 to 14 days due to implementing SEAM. PRU
    employees placed and received duplicate stamp orders, which caused some PRUs
    to exceed their accountability stock levels. We also identified a 137 percent increase
    (from 57.5 million to 136.3 million) in the number of items requisitioned by
    emergency stamp orders during Quarter (Q) 2 of fiscal year (FY) 2013 compared to
    Q2, FY 2011 when the former process was in place. Although AMI management
    recently reduced the turnaround time to about 7 days, it did not communicate the
    change to PRU personnel and the lead time is still longer than it was under the
    former Stamp Services System.

   SDC managers were not always aware of decisions AMI planners10 made to
    replenish stamp stock, such as listing items as unavailable in the SEAM stamp
    catalog or requesting a stamp reprint. As a result, SDC managers had to alert AMI
    planners when their stamp stock levels were significantly low and therefore, could

8
  On July 27, 2013, management changed the policy that required eBuy2 approval for stamp orders. Ordering stamps
through the eBuy2/SEAM catalog no longer requires high-level approvals. All stamp orders will automatically be
approved when an order is created.
9
  Changes were communicated to area operation vice presidents, published in bulletins/retail digests, and posted in
standard operating procedures on the SEAM web site.
10
   AMI planners are responsible for monitoring inventory levels and transferring stock between SDCs.

                                                         4
Stamp Stock Ordering and Fulfillment                                          MS-AR-14-001



    lead to backorders, additional processing time, and inefficiencies as opposed to the
    planners notifying the managers.

Future Considerations




Recommendations

We recommend the chief Marketing and Sales officer, executive vice president, in
coordination with the vice president, Supply Management:

1. Improve scanning processes to ensure they are compatible with current Postal
   Service information technology platforms and conduct proper testing of any new
   functionality prior to deployment into the Solution for Enterprise Asset Management
   system.

2. Develop a policy to ensure that transaction data related to incoming shipments is
   fully captured in the Solution for Enterprise Asset Management system and
   transmitted to the Standard Accounting for Retail system timely.

3. Send special, electronic alert notices directly to the requester when stamp orders are
   cancelled or placed in a backorder status, including instructions on actions needed
   to proceed with the stamp orders.

4. Document and communicate major process changes directly to stamp distribution
   center and postal retail unit personnel by providing message alerts when orders are
   placed in eBuy2. These messages should advise personnel of new requirements,
   changes related to the stamp ordering and fulfillment process, and expected receipt
   times for stamp shipments.

Management’s Comments

Management agrees with the finding, recommendations, and other impact in the report.
Regarding recommendation 1, management stated it has implemented general system
improvements resulting in improved scanning and response times. Management stated
that appropriate testing needs to occur and it has informed both Supply Management
and IT staff about the importance of proper testing for all system changes.

Regarding recommendation 2, management developed a policy that will be published in
Handbook F-101, Field Accounting Procedures, by December 31, 2013. This policy will
require transaction data for incoming shipments to be fully captured in SEAM and
transmitted to the Standard Accounting for Retail system timely.


                                            5
Stamp Stock Ordering and Fulfillment                                         MS-AR-14-001




Regarding recommendation 3, management stated electronic messaging is currently
available within eBuy2 to notify the requestor when one or more items on the requisition
are rejected or stamps orders are cancelled. The requestor must log into eBuy to obtain
this information.

Regarding recommendation 4, management stated it has implemented a broadcast
message alert that splashes on the eBuy2 screen to communicate relevant stamp
ordering and fulfillment information.

Management also addressed future considerations,




See Appendix D for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

The OIG considers recommendations 2 through 4 significant, and therefore requires
OIG concurrence before closure. Consequently, the OIG requests written confirmation
when corrective actions are completed. These recommendations should not be closed
in the Postal Service’s follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.




                                           6
Stamp Stock Ordering and Fulfillment                                           MS-AR-14-001




                             Appendix A: Additional Information

Background

The Postal Service uses two operational components to process postage stamp orders.
SDCs process requests received from PRUs and contract postal units. Stamp
Fulfillment Services processes stamp orders received directly from external customers,
including large mailers.

SDC Process: In FY 2012, SDCs processed stamp orders for about 32,000 PRUs that
contributed to $65 billion in postage sales. Postal Service management developed the
Supply Chain Integration initiative under the Delivering Results, Innovation, Value, and
Efficiency portfolio to simplify stamp ordering and fulfillment processes. One of the
initiative's objectives was to enhance asset management technology and processes
through creation of the automated SEAM system. The purpose of SEAM was to
increase inventory visibility, improve asset tracking and maintenance, implement
demand forecasting, and centralize ordering and fulfillment planning to reduce manual
orders and stock outages.

From August to November 2012, the Postal Service implemented the SEAM stamp
ordering and fulfillment process. Under SEAM, PRU personnel place orders for postage
stamps in the eBuy2 Purchasing System or via telephone. The approved eBuy2 orders
are batched and routed to SEAM for processing and filling at the applicable SDCs
assigned to service PRUs. SDCs either fill stamp orders and ship stamps to PRUs, or
place the orders in a backorder status when stamp inventory is unavailable.

Stamp Fulfillment Services Process: Stamp Fulfillment Services generated net revenue
of over $526 million and shipped about 2.9 million orders in FY 2012. The Stamp
Fulfillment Services Center is responsible for fulfilling and shipping national orders for
stamps, stationery items, philatelic products, and other retail merchandise to customers
in an automated environment. Stamp Fulfillment Services receives and fulfills orders
from individual purchasers, large volume customers, international agents, and
subscription customers; and provides requests for cancellation services for philatelists
and philatelic dealers. Customer orders are received by mail order, telephone, and
through the Internet.

Objective, Scope, and Methodology

Our objective was to determine whether there were opportunities for improvement in the
internal stamp ordering and fulfillment processes.




                                             7
Stamp Stock Ordering and Fulfillment                                           MS-AR-14-001



To accomplish our objective, we:

   Met with the Stamp Inventory Lean Six Sigma team to obtain details of the Postal
    Service's initiative to resolve stamp ordering and fulfillment complaints and reduce
    excess inventory issues.

   Interviewed headquarters, AMI, SDC, Stamp Fulfillment Services, PRU, and IT
    personnel to obtain feedback on the stamp ordering process.

   Conducted on-site observations of day-to-day operations at the Kansas City, MO;
    Binghamton, NY; and Atlanta, GA SDCs; and at Stamp Fulfillment Services in
    Kansas City, MO. We also conducted teleconferences with personnel at the Dulles,
    VA; Phoenix, AZ; and Portland, OR SDCs regarding their operations.

   Evaluated efficiencies gained or lost due to conversion from the Stamp Services
    System to the SEAM system and the new stamp ordering process.

   Reviewed and analyzed Data Analysis Reports to determine the status of approved
    goals and milestones for inventory visibility, functionality deployment, system and
    operational risks, financial obligations, and management responsibility.

   Obtained and analyzed eBuy2 and SEAM data that were used to develop various
    graphs and charts.

   Examined timeliness of recording incoming stamp stock shipments and payments to
    suppliers.

We conducted this performance audit from March through November 2013 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management on September 10, 2013, and included
their comments where appropriate.

We also obtained and analyzed data in various Postal Service applications, databases,
and systems to indicate ordering, shipment, and sales information related to the
process. We assessed the reliability of stamp shipment and sales data by matching and
comparing quantities shipped and sold. We validated the data contained in these
systems and used them to develop the issues identified in this report. We determined
the data were sufficiently reliable for the purposes of this review.




                                             8
    Stamp Stock Ordering and Fulfillment                                             MS-AR-14-001




    Prior Audit Coverage

                                                       Final           Monetary
                                                      Report            Impact
         Report Title            Report Number          Date         (in millions)
Stamp Manufacturing and           MS-AR-12-006       7/23/2012           $8.1
Inventory Management
Report Results:
We found that the Postal Service overproduced stamps by 2 billion, resulting in
unnecessary annual manufacturing costs for stamps that were later destroyed. We
recommended the Postal Service improve controls over stamp manufacturing.
Management agreed with the findings, recommendations, and monetary impact.

Stamp Distribution                  FF-AR-11-012         7/29/2011           $5.9
Procedures
Report Results:
The Postal Service did not sufficiently mitigate the increased level of risk incurred
when it discontinued the use of Registered Mail™ service for stamp stock
shipments and consolidated the stamp distribution offices into six SDCs. We
recommended the Postal Service: develop a nationwide strategy to manage lost
stamp stock shipments, identify trends and problem areas, and perform risk
assessments while monitoring stamp stock shipments; and instruct units to notify
the OIG when stamp stock shipments are lost or missing. Management agreed to
develop a strategy to identify units that reported multiple claims for loss within a
defined timeline and follow up with performing a risk assessment. This is scheduled
for completion prior to Q4, FY 2012. Further, management only partially agreed with
the recommendation for PRUs to report lost or stolen shipments to the OIG
because they believe the current policy to have these missing shipments reported
to the Postal Inspection Service is sufficient and that further discussions should
occur between the Postal Inspection Service and the OIG. However, they did issue
an update to Handbook F-101, in February 2012, instructing PRUs to notify the OIG
when reporting lost or missing stamp stock.




                                                 9
Stamp Stock Ordering and Fulfillment                                                               MS-AR-14-001




                                      Appendix B: Other Impact

           Recommendation                     Impact Category                   Amount
                 2                            Revenue at Risk11                  $119,890,320


This amount represents shipments received at SDCs from August 13, 2012, to June 10,
2013, but not recorded in the Standard Accounting for Retail system timely. We
identified 49 shipments totaling $119,890,320 that were not fully recorded in the
Standard Accounting for Retail system within 15 days12 of the shipments' receipt.




11
  Revenue the Postal Service is at risk of losing because stamps are not properly managed or protected.
12
 We applied the same policy which requires PRUs to record shipment transactions within 15 days of receipt to
SDCs as well (Handbook F-101, Section 11-5.8, updated with Postal Bulletin articles through April 2013).


                                                       10
Stamp Stock Ordering and Fulfillment                                                                     MS-AR-14-001




                                    Appendix C: Stamp Sales Activity

Postal Service studies13 have shown collectors primarily purchase commemorative and
special issue stamps during the first 13 weeks after the first day of issue--resulting in
over $40 million in revenue. Figures 1 and 2 illustrate PRUs that did not have stamp
sales during the first 13 weeks of the first day of issue for select commemorative and
special issue stamps during calendar year 2013. Figures 1 and 2 also show the lost
revenue opportunities for the Postal Service during the peak collectors' purchasing
period. Stamp stock outages experienced at the SDCs and PRUs significantly delayed
the availability of the stamps and corresponding sales at PRUs.

For example, 34 percent of the large PRUs did not have sales of the "Muscle Car"
commemorative stamp during the 5th week after the first day of issue (see Figure 1).
PRUs did not have adequate supplies because sufficient stock amounts were not
initially distributed to the SDCs and too much lead time was needed to order additional
supplies in a timely manner for PRUs.

                               Figure 1. Muscle Car Sales at Large PRUs




Source: Stamps sales recorded in the Retail Data Mart from the first day of issue – February 22, 2013.




13
     Synovate, a marketing research firm, conducts customer stamp retention studies for the Postal Service.

                                                           11
Stamp Stock Ordering and Fulfillment                                                                   MS-AR-14-001




Figure 2 shows that by the 4th week of first day of issue, 30 percent of the large PRUs
were not selling the "Emancipation Proclamation" stamp. The graph also shows that
many PRUs ran out of stock quickly and ordering and fulfillment from the SDC to the
PRU did not occur timely.

            Figure 2. Emancipation Proclamation Stamp Sales at Large PRUs




Source: Stamps sales recorded in the Retail Data Mart from the first day of issue – January 1, 2013.




                                                         12
Stamp Stock Ordering and Fulfillment                           MS-AR-14-001



                           Appendix D: Management's Comments




                                          13
Stamp Stock Ordering and Fulfillment        MS-AR-14-001




                                       14
Stamp Stock Ordering and Fulfillment        MS-AR-14-001




                                       15
